                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                

                



                     EPA Should Strengthen
                     Records Management on
                     Clean Water Act Section 404
                     Permit Notification Reviews
                     for Surface Coal Mining
                     Report No. 12-P-0249                    February 2, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Patrick Gilbride
                                                   Erin Barnes-Weaver
                                                   Mary Anne Strasser
                                                   Luke Stolz




Abbreviations

CWA           Clean Water Act
DARTER        Data on Aquatic Resources Tracking for Effective Regulation
EPA           U.S. Environmental Protection Agency
FY            Fiscal year
OIG           Office of Inspector General
OW            Office of Water


Cover photo: Valley fill and impoundment in West Virginia. (U.S. Department of the Interior
             Office of Surface Mining Reclamation and Enforcement photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             12-P-0249
                                                                                                     February 2, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              EPA Should Strengthen Records Management
In an Office of Inspector
                                    on Clean Water Act Section 404 Permit
General report issued on            Notification Reviews for Surface Coal Mining
November 21, 2011, we
addressed a congressional            What We Found
request on Clean Water Act
(CWA) Section 404 permit            EPA staff in Regions 3, 4, and 5 should better document their records of review
applications. While reviewing       activities on CWA Section 404 surface mining permit notifications. EPA regional
files in U.S. Environmental         staff believe that Agency comment letters are the only official records that they
Protection Agency (EPA)             should maintain related to notification reviews. Because of the limited
Regions 3, 4, and 5, we             documentation, information we needed to complete our congressional review was
encountered recordkeeping           not available, and we could not discern whether EPA had reviewed some
issues that warranted this          notifications. Without knowledge of permit status and the resolution of
review.                             comments, EPA may not be able to determine whether its reviews have desired
                                    environmental impacts. Also, without properly maintaining evidence of CWA
Background                          Section 404 permit notification reviews, EPA risks being out of compliance with
                                    the Federal Records Act.
The U.S. Army Corps of
Engineers issues permits for        EPA has recently taken actions that should improve documentation of the
surface coal mining under           Agency’s CWA Section 404 activities nationwide—not just those related to
CWA Section 404 and is the          surface mining activities in Regions 3, 4, and 5. EPA’s Office of Water
official agency of record. EPA      developed the Data on Aquatic Resources Tracking for Effective Regulation
reviews permit notifications for    (DARTER) system to alert staff of permit notifications and to track information
water quality and provides the      on the Agency’s CWA Section 404 regulatory activities. However, EPA currently
Corps with comment letters on       limits DARTER implementation to standard permits only, and the use of
some permit notifications. EPA      DARTER is not mandatory. In addition, Region 5 developed the Coal Tracker
also attends meetings and site      system to keep track of mining permit notifications and to help complete its
visits with Corps project           reviews.
managers and applicants. The
Federal Records Act states that      What We Recommend
“records” include all
documentary materials in            We recommend that the Office of Water coordinate with headquarters and
connection with the transaction     regions to identify DARTER as an official recordkeeping system and develop a
of public business.                 full implementation plan, identify as official records certain basic information
                                    entered in DARTER, and indicate when DARTER will incorporate additional
For further information, contact    permit actions. We also recommend that the Office of Water reconcile any data
our Office of Congressional and
Public Affairs at (202) 566-2391.
                                    duplication between DARTER and Region 5’s Coal Tracker system. Lastly, we
                                    recommend that the Office of Water clarify the requirements of certain EPA
The full report is at:              records schedules. The Office of Water concurred with our recommendations and
www.epa.gov/oig/reports/2012/       described planned actions to address our recommendations. Our
20120202-12-P-0249.pdf              recommendations remain unresolved pending the Office of Water’s corrective
                                    action plan with milestone dates.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                 THE INSPECTOR GENERAL




                                         February 2, 2012

MEMORANDUM

SUBJECT:	 EPA Should Strengthen Records Management on Clean Water Act
          Section 404 Permit Notification Reviews for Surface Coal Mining
          Report No. 12-P-0249


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           Nancy K. Stoner
               Acting Assistant Administrator for Water


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We will post your response on the OIG’s public website,
along with our memorandum commenting on your response. Please provide your response as an
Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want released to the public; if your response contains such data, you should identify the data
for redaction or removal. We have no objections to the further release of this report to the public.
We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist at
(202) 566-0899 or heist.melissa@epa.gov, or Patrick Gilbride at (303) 312-6969 or
gilbride.patrick@epa.gov.
EPA Should Strengthen Records Management on                                                                                    12-P-0249
Clean Water Act Section 404 Permit Notification
Reviews for Surface Coal Mining


                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Scope and Methodology.............................................................................................                 2


   Results of Review .......................................................................................................          3


           Recordkeeping in Regions 3, 4, and 5 for CWA Section 404 Permit 

             Notification Reviews for Surface Coal Mining Is Limited .................................                                3

           Recent Noteworthy Actions to Improve Recordkeeping Should Be Expanded ....                                                 4


   Recommendations ......................................................................................................             6


   Agency Comments and OIG Evaluation ...................................................................                             6


   Status of Recommendations and Potential Monetary Benefits..............................                                            7




Appendices
   A       Office of Water’s Response to Draft Report ....................................................                            8


   B       Distribution .........................................................................................................    13

Purpose
                 The Office of Inspector General (OIG) issued Report No. 12-P-0083,
                 Congressionally Requested Information on the Status and Length of Review for
                 Appalachian Surface Mining Permit Applications, on November 21, 2011.1 That
                 report responded to a congressional request2 on the status of 237 mountaintop
                 mining permit applications. During the course of that review, we conducted site
                 visits to U.S. Environmental Protection Agency (EPA) Regions 3, 4, and 5 to
                 review documents and determine the status of the 237 permit applications. We
                 observed recordkeeping deficiencies during those site visits that warranted this
                 review.

                 The purpose of this review was to determine whether EPA Regions 3, 4, and 5
                 maintain records in accordance with the Federal Records Act for Clean Water Act
                 (CWA) Section 404 permit notification reviews for surface coal mining.

Background
                 Congress passed the Federal Water Pollution Control Act (hereafter the Clean
                 Water Act, or CWA) in 1972 as the principal federal statute protecting navigable
                 waters from pollution. CWA Section 404 regulates the placement of dredged or
                 fill material into waters of the United States,3 including wetlands. Surface coal
                 mining that impacts waters of the United States requires a U.S. Army Corps of
                 Engineers-issued CWA Section 404 permit. Although the Corps is responsible for
                 issuing CWA Section 404 permits, the EPA Administrator, in conjunction with
                 the Corps, is responsible for developing and executing guidelines for
                 environmental evaluation of applications. EPA and the Corps jointly developed
                 CWA Section 404(b)(1), Guidelines for Specification of Disposal Sites for
                 Dredged or Fill Material, to outline environmental criteria used to evaluate
                 permit applications. Under CWA Section 404(b)(1), EPA may review and
                 comment on permit notifications for water quality compliance. In addition, EPA
                 may conduct site visits and attend meetings with the Corps, applicants, and other
                 stakeholders on particular permit notifications.

                 EPA has two records schedules that pertain to CWA Section 404 actions:

                      	 Records Schedule 205 applies Agency-wide to permit files, including
                         records relating to permits issued or terminated pursuant to CWA Section

1
  This report is available at http://www.epa.gov/oig/reports/2012/20111121-12-P-0083.pdf.
2
  On October 15, 2010, we received a congressional request that asked for the status of a list of 237 mountaintop
mining permit applications and the length of time to review each permit; the reasons for the length of review for
each permit; and the number of permits from the list of 237 that EPA has processed according to the “enhanced
review” and “conductivity” procedures, as well as the average length of time to process a permit under these
procedures.
3
  Waters of the United States are defined in the Code of Federal Regulations (CFR) at 40 CFR 230.3(s), and include
tributaries and wetlands.


12-P-0249                                                                                                        1
                           404(c).4 This schedule requires staff to destroy CWA Section 404 records
                           5 years after file closure.

                      	 Records Schedule 514 applies to EPA headquarters. It addresses records
                         relating to the programmatic review of CWA Section 404 permits,
                         including correspondence with federal and state officials and private
                         companies on pollution prevention issues, coordination with the Corps,
                         and policy and regulations pertaining to the management of the 404
                         program. This schedule requires closing inactive records at the end of
                         2 years and eventually transferring these records to the National Archives
                         after file closure. This schedule also cross-references Records Schedule
                         205 for maintenance of 404 permit records in regional offices.

                  In 2006, EPA began developing the Data on Aquatic Resources Tracking for
                  Effective Regulation (DARTER) system, a data tracking and alert system for
                  CWA Section 404 permit notifications. From fiscal year (FY) 2006 through
                  FY 2010, the Office of Water (OW) invested approximately $880,000 developing
                  DARTER. EPA intended that the DARTER system would increase the Agency’s
                  awareness of permit notification activity through the daily update of specific data
                  from the Corps system. In addition, DARTER is intended to:

                      	 Collect and provide information needed to report on performance
                         measures
                       Generate data for national reporting
                       Provide data that can be analyzed for trends, such as examining issues
                         raised in comment letters and identifying recurring problem areas
                       Retain project information to provide continuity for managers and staff as
                         project managers retire or turn over

                  According to OW staff, Records Schedule 514 covers DARTER. OW and EPA
                  regions agreed that FY 2011 would be the first full year of implementation for
                  DARTER, and that regions would enter certain basic information on standard
                  permit5 notifications into DARTER. The lead DARTER staff member said that
                  standard permits represent the majority of EPA’s CWA Section 404 activity.

Scope and Methodology
                  We performed our field work from August to December 2011 in accordance with
                  generally accepted government auditing standards. Those standards require that
                  we plan and perform our review to obtain sufficient, appropriate evidence to
                  provide a reasonable basis for our findings and conclusions based on our

4
  Under CWA Section 404(c), EPA has the authority to withdraw or restrict the use of a disposal site if it determines
that a discharge of dredged or fill material is having or will have an unacceptable adverse effect on, among other
things, municipal water supplies, wildlife, or recreational areas. EPA has issued 13 final veto actions since 1972.
5
  A standard permit, which is a type of individual permit, is one that has been processed through the public interest
review procedures, including public notice and receipt of comments.


12-P-0249                                                                                                           2
                objectives. We believe that the evidence obtained provides a reasonable basis for
                our findings and conclusions.

                We reviewed relevant laws, regulations, policies, procedures, and guidance
                governing records management. We gathered and analyzed information from OW
                and the U.S. Government Accountability Office. We conducted interviews with
                EPA staff in OW and Regions 3, 4, and 5, as well as EPA’s Agency Records
                Officer, to understand and document CWA Section 404 records management.
                We also participated in a demonstration on DARTER and reviewed portions of
                another database utilized by Region 5 called Coal Tracker.

Results of Review

                Recordkeeping in Regions 3, 4, and 5 for CWA Section 404 Permit
                Notification Reviews for Surface Coal Mining Is Limited

                While conducting site visits during our congressionally requested audit, we found
                that EPA staff in Regions 3, 4, and 5 should better document their records of
                review activities on CWA Section 404 surface mining permit notifications.
                Documentation related to these reviews varied depending on regional personnel
                involved because individual project managers determined what documentation to
                retain in files. Prior to our site visits to Regions 3, 4, and 5 to review permit
                documentation, the Corps provided us information on 127 permit applications,
                and OW provided us what information it had on the 237 applications listed in the
                congressional request. We were unable to obtain any information on 17 permit
                applications during our site visits and were missing some information on several
                others; however, subsequent to our site visits we were able to work with the Corps
                and EPA to obtain the additional information we needed. Because staff does not
                consistently maintain records of reviews that did not result in EPA comment
                letters, it is difficult to discern whether regional staff reviewed a notification and
                did not comment on it, or did not review it at all. In an earlier, similar review, the
                Government Accountability Office noted that it, too, was unable to evaluate the
                extent to which EPA Region 3 and the Corps coordinated on 28 permit
                applications because of limited and varied documentation.6

                The Federal Records Act regulations define “records” as including all
                documentary materials, regardless of physical form, made or received by an
                agency in connection with the transaction of public business and preserved as
                evidence of decisions, procedures, operations, or other activities of the
                government.7 EPA’s Information Policy on Records Management8 states that all
                EPA employees are responsible for creating and managing the records necessary

6
  U.S. Government Accountability Office briefing report, EPA and the Corps’ CWA Section 404 Permit Reviews 

Under Enhanced Coordination Procedures, GAO-11-101R, was issued on October 19, 2010; the briefing was given 

on September 16, 2010.

7
  44 U.S.C. 3301. 

8
  EPA Classification No. CIO 2155.1. 



12-P-0249                                                                                                  3
            to document the Agency’s official activities and actions, as well as filing them for
            efficient retrieval. EPA created this policy to establish principles, responsibilities,
            and requirements for managing EPA’s records to ensure that the Agency complies
            with federal laws and regulations and best practices for managing records.

            Staff in Regions 3, 4, and 5 believe that EPA comment letters are the only official
            records that they should maintain related to EPA’s CWA Section 404 permit
            notification reviews. Regional staff explained that the Corps is the permitting
            agency and, as such, is responsible for the administrative record.

            As a result of the limited regional documentation, information needed to complete
            our congressional review was not available, and we could not discern whether
            EPA had reviewed some notifications. Without knowing permit status
            (i.e., issued, withdrawn) and the resolution of EPA’s comments, it would be
            difficult for EPA to determine whether its review activities have the
            environmental impact envisioned by CWA Section 404(b)(1). Further, by not
            properly maintaining records that document EPA’s activities on CWA
            Section 404 surface mining permit notification reviews, EPA risks not being in
            compliance with the Federal Records Act and EPA policy.

            During our review we also noted confusion over which records schedule applied
            to EPA’s review of CWA Section 404 permit notifications. EPA headquarters
            believes that Records Schedule 514 is the appropriate schedule for capturing
            information related to CWA Section 404 permit notification reviews entered by
            EPA in DARTER. However, Schedule 514 applies to EPA headquarters only and
            refers to Records Schedule 205 for records related to CWA Section 404 permits
            maintained in the EPA regional offices. EPA Regions 3, 4, and 5 may be using the
            agency-wide Records Schedule 205 for CWA section 404 records management
            guidance. While Schedule 205 states it should be used in the issuance or denial of
            a permit issued by EPA offices, it also recognizes that the Corps and states are the
            CWA Section 404 permitting authorities. Schedule 205 also provides EPA
            records retention and disposal requirements for CWA Section 404. Both EPA
            headquarters and regional staff need clarity as to when each schedule applies.

            Recent Noteworthy Agency Actions to Improve Recordkeeping
            Should Be Expanded

            Beginning in FY 2011, OW and all 10 EPA regions agreed to include certain
            basic information on standard permits in DARTER. This basic information
            includes:

                  Preapplication coordination
                  Public notices (including public notification review, comment letters, site
                   visits, meetings, and notifications of withdrawn applications and issued
                   permits)
                  Postpermit review


12-P-0249                                                                                         4
            The implementation of DARTER should improve documentation of the Agency’s
            CWA Section 404 activities nationwide—not just those related to surface mining
            activities in Regions 3, 4, and 5—by standardizing the information EPA maintains
            for all standard permits and documenting activities staff perform in executing
            CWA Section 404 permit notification reviews, as required by the Federal Records
            Act and EPA policy. EPA staff said DARTER allows them to include copies of
            public notices and comment letters in the system and indicate where a public
            notice is in the EPA review process.

            However, regional use of DARTER is not mandatory, and DARTER has not been
            designated an official recordkeeping system. In addition, staff currently use
            DARTER only for standard permit notifications rather than for all permit
            notifications EPA reviews (e.g., nationwide permits, jurisdictional
            determinations). Without entering certain basic information in DARTER on all
            permit notification reviews, it would be difficult for EPA to create reports on the
            effect of its comments. Region 4 staff said that they were not able to enter all
            basic information for standard permits they reviewed into DARTER by the end of
            FY 2011, and recently hired a staff person to assist with DARTER data entry.

            EPA developed DARTER to be an Agency-wide system to track permit
            notification information and EPA’s CWA Section 404 regulatory activities.
            DARTER may also help track the percentage of CWA Section 404 permits on
            which EPA coordinated with the Corps that resulted in greater environmental
            protection than originally proposed. OW’s National Water Program Guidance
            includes as a performance measure the percentage of permits on which EPA and
            the Corps coordinate with the permitting authority.

            Independent of DARTER, Region 5 staff developed a Microsoft Access database
            called Coal Tracker to track all coal mining permit notifications in the region and
            began using it in 2009. According to Region 5 staff, Coal Tracker provides
            detailed information that is not included in DARTER. Region 5 staff also use
            Coal Tracker to help complete their reviews and provide managers easy access to
            information. We think Region 5 showed initiative in developing this database.
            Although Region 5 shared its database with Regions 3 and 4, at the time of our
            review, only Region 5 used it. However, Region 5 uses both DARTER and Coal
            Tracker, and the two systems do not interact. OW plans to address the current
            inefficiency of duplicated Region 5 data entry.




12-P-0249                                                                                     5
Recommendations
            We recommend that the Assistant Administrator for Water:

               1.	 Coordinate with the appropriate headquarters and regional personnel to
                   identify DARTER as an official recordkeeping system and to identify the
                   basic information entered in DARTER (such as preapplication
                   coordination, public notice review, and postpermit review) as official
                   records documenting EPA’s role in CWA Section 404 permit notification
                   reviews.

               2.	 Coordinate with the regions to develop a full implementation plan for
                   DARTER identifying when DARTER will incorporate additional permit
                   actions (e.g., nationwide permits, jurisdictional determinations).

               3.	 Work with Region 5 to reconcile any data duplication between DARTER
                   and Region 5’s Coal Tracker system.

               4.	 Revise Records Schedules 205 and 514 as appropriate to clarify
                   usage/applicability and retention requirements for CWA Section 404
                   reviews for both headquarters and regional staff.

Agency Comments and OIG Evaluation
            OW concurred with recommendations 1 through 3 and believes these
            recommendations will help the Agency achieve the important goal to provide
            maximum transparency in the administration of EPA’s role under the CWA
            Section 404 regulatory program. OW’s response outlined the Agency’s planned
            actions to address recommendations 1 through 3, and we believe these planned
            actions address the intent of our recommendations. Appendix A contains OW’s
            full response to our draft report.

            During our exit briefing with OW on January 17, 2012, we discussed staff
            confusion on when to use Records Schedules 205 and 514, and OW staff agreed
            that headquarters and regional staff need clarity as to when each schedule applies.
            As such, we worked with OW to develop recommendation 4, and OW staff
            agreed to revise Records Schedules 205 and/or 514 to clarify applicability and
            retention requirements.




12-P-0249                                                                                     6
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed-To
    No.      No.                         Subject                         Status1      Action Official           Date      Amount      Amount

     1        6     Coordinate with the appropriate headquarters and        U      Assistant Administrator
                    regional personnel to identify DARTER as an                           for Water
                    official recordkeeping system and to identify the
                    basic information entered in DARTER (such as
                    preapplication coordination, public notice review,
                    and postpermit review) as official records
                    documenting EPA’s role in CWA Section 404
                    permit notification reviews.

     2        6     Coordinate with the regions to develop a full           U      Assistant Administrator
                    implementation plan for DARTER identifying when                       for Water
                    DARTER will incorporate additional permit actions
                    (e.g., nationwide permits, jurisdictional
                    determinations).

     3        6     Work with Region 5 to reconcile any data                U      Assistant Administrator
                    duplication between DARTER and Region 5’s Coal                        for Water
                    Tracker system.

     4        6     Revise Records Schedules 205 and 514 as                 U      Assistant Administrator
                    appropriate to clarify usage/applicability and                        for Water
                    retention requirements for CWA Section 404
                    reviews for both headquarters and regional staff.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0249                                                                                                                                        7
                                                                                    Appendix A

            Office of Water’s Response to Draft Report

                                        January 10, 2012

MEMORANDUM

SUBJECT:       Response to the Office of Inspector General Audit Report, “EPA Should
               Strengthen Records Management on Clean Water Act Section 404 Permit
               Notification Reviews for Surface Coal Mining”, Project No. OA-FY11-0014
               (December 7, 2011)

FROM:          Nancy K. Stoner /s/
               Acting Assistant Administrator
               Office of Water

TO:            Melissa M. Heist
               Assistant Inspector General for Audit
               Office of Inspector General

This memorandum serves as the U.S. Environmental Protection Agency (EPA)’s response to the
December 7, 2011 draft audit report, "EPA Should Strengthen Records Management on Clean
Water Act Section 404 Permit Notification Reviews for Surface Coal Mining," Project Number
OA-FY11-0014 (Draft Report). This response has been coordinated with EPA Regions 3, 4, and
5. The purpose of the Draft Report was to determine whether EPA Regions 3, 4, and 5 maintain
records in accordance with the Federal Records Act for Clean Water Act (CWA) Section 404
permit notification reviews for surface coal mining.

We appreciate your coordination with the Office of Water and with Regions 3, 4, and 5 during
your review. We agree with your overall conclusion that further steps can be taken to better
document our Section 404 reviews of projects seeking authorization from the U.S. Army Corps
of Engineers or authorized States. It is a clear priority for the Office of Water to provide
maximum transparency in the administration of the EPA’s role under the CWA section 404
regulatory program. The OIG recommendations should contribute to helping us achieve this
important goal.

We believe that your Draft Report is factually accurate, with one exception regarding the
relevant records schedule for data entered into our permit review tracking system. The Draft
Report states that Records Schedule 205 addresses Section 404 records retention. However, the
description of Records Schedule 205 states that it “contains records used in the issuance or denial
of a permit issued by the EPA offices or authorized states, federal facilities, interstate or local
agencies.” As the U.S. Army Corps of Engineers (Corps) or an assumed state program is the
permitting authority under CWA Section 404, the EPA is not responsible for the issuance or
denial of Section 404 permits. We have consulted with the Record Management Program within


12-P-0249                                                                                        8
my office, and believe the Records Schedule referenced in the Draft Report is incorrect. We
believe Records Schedule 514 is more appropriate for capturing information entered by the EPA
in DARTER. As described further below, this records schedule addresses CWA Section 404
program file records.

With regards to your recommendations, the EPA generally concurs with the essence of
recommendations 1, 2, and 3. The following is a more detailed discussion of the EPA's response
to each recommendation. My staff is pleased to further discuss the alternative actions we have
recommended in response to the findings of your draft report.

Recommendation 1 – Coordinate with the appropriate headquarters and regional
personnel to identify DARTER as an official recordkeeping system and to identify the basic
information entered in DARTER (such as pre-application coordination, public notice
review, and post-permit review) as official records documenting EPA’s role in CWA
Section 404 permit notification reviews.

Response: We concur with comment in Recommendation 1. We agree that DARTER, used in
conjunction with the EPA’s existing policies, systems, and requirements for official records
management, contains official records of the EPA’s actions in CWA 404 public notice review.
We commit to coordinate with Headquarters and Regional Section 404 staff to ensure that they
recognize that DARTER contains records that should be maintained consistent with the
applicable EPA records schedules, as outlined below.

The EPA Office of Water's Records Management Program follows a strategic plan which
advocates that all recorded information created or received by the Agency, regardless of record
status, be managed according to EPA records schedules. The Office of Water's records
management guidance, training, and tools are available on its Intranet site and contain examples
of best practices that can be adapted by the Regions.

In 2005, the Office of Water embarked on a strategic plan to establish and maintain compliance
with EPA records schedules and EPA records management policy. Elements of the plan speak
directly to compliance with the Federal Records Act requirement for adequate and proper
documentation: (1) All personnel are accountable for an annually updated file structure that
identifies the records schedules governing all recorded information in the individual's custody;
and (2) No work product or other documentation of Agency business activity may be designated
a nonrecord unless it meets the criteria specifically stated in the Nonrecords schedule (EPA
Records Schedule 008). The Office of Water provides records management guidance, training,
and tools that are maintained by the Office of Water Records Liaison Officer and disseminated
via an Intranet site and a network of Records Management Contacts.

Data on Aquatic Resources Tracking for Effective Regulation (DARTER) is the EPA's system to
manage its workflow in the Clean Water Act Section 404 permit program. Section 404 requires a
permit from the Corps, or EPA-approved State, for the discharge of dredged or fill material into
waters of the United States. As your draft report recognizes, the EPA plays a number of roles in
the Section 404 permit program, such as developing and interpreting policy, guidance, and
environmental criteria used in evaluating permit applications; determining the scope of



12-P-0249                                                                                          9
geographic jurisdiction; and reviewing and commenting on Section 404 public notices. DARTER
allows EPA staff to track agency involvement in pre-application coordination, review of public
notices for proposed permits, and proposed jurisdictional determinations; prepare and share
EPA-generated jurisdictional determinations; and access shared data from the Corps’ national
regulatory program data management system known as OMBIL Regulatory Module (ORM2).

To inform this response, we have coordinated with the Office of Water’s Record Management
Program, and these conversations have further clarified that under this Program DARTER is
considered to be a data and workflow tracking system that contains records, or copies of records,
relating to the EPA’s permit application review actions and coordination. EPA’s Records
Schedule 171 addresses data inputs and sources used to create, modify, or update electronic
records and is used for materials received by DARTER from ORM2. Records Schedule 514
addresses CWA Section 404 Program File records retention and requires the EPA Office of
Water, Headquarters, to transfer the records to the National Archives and Records
Administration at the end of their retention period after file closure. The EPA’s entries into
DARTER are covered under Records Schedule 514, and we will coordinate with Headquarters
and Regional staff to help ensure that these records are appropriately maintained and archived.

Recommendation 2 – Coordinate with the regions to develop a full implementation plan for
DARTER identifying when DARTER will incorporate additional permit actions.

Response: We concur in Recommendation 2. We recognize that DARTER implementation
remains in progress and can be improved and commit to developing an implementation plan to
improve upon the existing requirements to incorporate significant standard permit actions and
coordination events. In light of resource constraints, this plan will be implemented in phases, but
we will work to prioritize significant actions on which OIG expressed documentation concerns in
its review, which include EPA coordination on Corps’ Nationwide Permits (NWPs) associated
with coal mining.

In January 2010, the Wetlands Division within the Office of Water and all Regional Offices
agreed to a specific expected level of data entry in DARTER for the review of activities
proposed or authorized under Section 404. These requirements included all public notices for
proposed activities to be authorized under standard permits, and any “significant coordination
events” completed during the review of proposed activities to be authorized under standard
permits. “Significant coordination events” are defined as site visits, meetings and letters
completed during both the pre-application and public notice period of 404 application review. In
addition, the Regions are expected to complete final review, for all applications on which the
EPA coordinated, to determine if the EPA’s involvement resulted in environmental
improvements in the Corps’ final application decision.

Our decision to initially focus our limited resources on tracking the results of our review of
Corps standard permits reflects the fact that standard permits are the permitting vehicle that the
Corps typically uses to review the most potentially significant impacts to the Nation’s waters in
the Section 404 program. Standard permits are those individual permits that have been
processed through application of the Corps public interest review procedures (33 CFR 325) and
EPA's Section 404(b)(1) Guidelines, including public notice and receipt of comments. Standard



12-P-0249                                                                                        10
permits do not include letters of permission, regional permits, nationwide permits, or
programmatic permits.

The Office of Water is working with the Regions to ensure this minimum level of information is
being completed by all Regions, with the expectation that as the Regions become more proficient
with this new system, they will expand their utilization beyond these minimum levels of data
entry. The current agreement requires all proposed public notices to be identified as one of six
categories; “not screened”, “screened/not reviewed”, “reviewed/no comments”, “reviewed/
comment and start a file”, “pending”, and “reviewed/no comment (issued raised in pre-app were
addressed).” Starting with project files after January 2010, these categories will easily allow the
EPA to determine if Regional staff reviewed a public notice, and what action was taken as part of
that review.

Currently, DARTER has the ability to track any coordination events or relevant files for general
permits, mitigation projects, or draft jurisdictional determinations. While Regional staff can
choose to add this information, these elements are not required under the current DARTER user
agreement with the Regions. The EPA has minimal day-to-day interaction with the Corps on
general permit authorizations and rarely receives notification that general permit actions have
occurred. Similarly, draft jurisdictional determinations are not consistently tracked or entered
into ORM2 by the Corps Districts, and the EPA only has coordination events on a small subset
of the draft jurisdictional determinations made by the Corps. Because these activities constitute
only a small part of the EPA actions under Section 404, they were not considered to be the most
essential data elements to be tracked in the early stages of DARTER implementation.

The Office of Water plans to focus its energies in FY 2012 on ensuring that all Regions complete
the basic DARTER data entry as agreed to in January 2010 and will develop an implementation
plan in coordination with the Regions for improving entries, beginning in FY2013. This plan will
be based on an evaluation of the significant actions not yet being comprehensively tracked,
Regional data needs, and available resources. Full implementation of the plan will depend upon
appropriations in FY 2013 and later years.

Recommendation 3 – Work with Region 5 to reconcile any data duplication between
DARTER and Region 5’s Coal Tracker system.

Response: We concur in Recommendation 3. DARTER and the Coal Tracker system utilized by
Region 5 are designed to fulfill different program needs but have some common information.
DARTER is a national tool for managing the EPA’s workload and coordination actions in the
404 program with a focus on the actions that have the greatest likely impact on the environment.
Coal Tracker is an in-depth database for tracking specific details on proposed and authorized
surface coal mines, including site-specific environmental information, monitoring reports, and
effectiveness of best management practices and compensatory mitigation intended to offset the
environmental impacts of authorized discharges.

We agree there is the potential for some duplication of data entry to occur between the two
systems, mainly with regard to the basic project information such as project name, location, and
identification of impacts. In order to minimize the possibility for data duplication and/or errors



12-P-0249                                                                                        11
between DARTER and Region 5’s Coal Tracker system, we will coordinate with Region 5 and
DARTER contractors to develop and implement actions that will eliminate the need for
duplication of data entry for these duplicate fields and/or reduce the staff time needed to
accomplish data entry between the two systems. We plan to complete this action in FY 2012.

We appreciate the opportunity to review and comment on the Draft Report. Should you have any
questions or concerns regarding this response, please contact David Evans, Director of the
Wetlands Division, at 202-566-0535.




12-P-0249                                                                                     12
                                                                            Appendix B

                                    Distribution
Office of the Administrator
Acting Assistant Administrator for Water
Assistant Administrator for Environmental Information
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Regional Administrator, Region 3
Regional Administrator, Region 4
Regional Administrator, Region 5
Director, Office of Regional Operations
Audit Follow-Up Coordinator, Office of Water
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Region 3
Audit Follow-Up Coordinator, Region 4
Audit Follow-Up Coordinator, Region 5




12-P-0249                                                                           13
